No. 19-863
IN THE

Supreme Court of the United States
AGUSTO NIZ-CHAVEZ,
Petitioner,
v.
WILLIAM P. BARR, ATTORNEY GENERAL,
Respondent.
On Writ of Certiorari to the United States
Court of Appeals for the Sixth Circuit
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, David J. Zimmer, counsel of
record and a member of the Bar of this Court, certify this 6th day of August, 2020,
that the Brief for Petitioner contains 12,993 words, excluding the parts of the
document that are exempted by Supreme Court Rule 33.1(d).

August 6, 2020
David J. Zimmer
GOODWIN PROCTER LLP
100 Northern Ave.
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1000
Counsel for Petitioner

